App. 2
SUPREME COURT OF NEW JERSEY
M-120/121 September Term 2018
081396
Margaret A. Norton,
Plaintiff-Movant,
v.
Colgate Palmolive,

ORDER
(Filed Oct. 5, 2018)

Defendant.
It is ORDERED that the motion for leave to file a
notice of petition for certification as within time (M120) is granted; and it is further
ORDERED that the miscellaneous motion to
amend the petition for certification with additional
pages (M-121) is granted.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 3rd day of October, 2018.
/s/ Mark Neary
CLERK OF THE
SUPREME COURT

App. 3
ORDER ON MOTION

ANSWER(S) 05/25/2018
FILED:

SUPERIOR COURT
OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-006687-17
BEFORE PART G
JUDGE(S):
HARRY G. CARROLL
HANY A MAWLA

SUBMITTED TO COURT:
May 31, 2018

BY:
MARGARET NORTON

MARGARET A. NORTON
V.
COLGATE PALMOLIVE

MOTION FILED:
05/09/2018

BY:
COLGATE PALMOLIVE
ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 4th day of
June, 2018, HEREBY ORDERED AS FOLLOWS:
MOTION BY APPELLANT
MOTION FOR RULE 4:50-l(A) VACATE
DENIAL OF PLAINTIFFS SECOND
MOTION FOR RECONSIDERATION
DENIED
SUPPLEMENTAL:
FOR THE COURT:
/s/ Harry G. Carroll___________
HARRY G. CARROLL, J.A.D.

App. 4
LT-001648-16 ESSEX
ORDER - REGULAR MOTION
IV

App. 5
ORDER ON MOTION
MARGARET A. NORTON
V.
COLGATE PALMOLIVE

MOTION FILED:
04/02/2018
ANSWER(S)
FILED:
SUBMITTED TO COURT:
April 30, 2018

SUPERIOR COURT
OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-005659-17
BEFORE PART G
JUDGE(S):
HARRY G. CARROLL
HANY A MAWLA
BY:
MARGARET NORTON

ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 30th day
of April, 2018, HEREBY ORDERED AS FOLLOWS:
MOTION BY APPELLANT
MOTION FOR RECONSIDERATION (SECOND
MOTION FOR RECONSIDERATION)
DENIED
SUPPLEMENTAL:
FOR THE COURT:
/s/ Harry G. Carroll__________
HARRY G. CARROLL, J.A.D.

App. 6
LT-001648-16 ESSEX
ORDER - REGULAR MOTION
IV

App. 7
ORDER ON MOTION
MARGARET A. NORTON
V.
COLGATE PALMOLIVE

ANSWER(S) 04/26/2018
FILED:

SUPERIOR COURT
OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-005646-17
BEFORE PART G
JUDGE(S):
HARRY G. CARROLL
HANY A MAWLA

SUBMITTED TO COURT:
April 30, 2018

BY:
MARGARET NORTON

MOTION FILED:
03/29/2018

BY:
COLGATE PALMOLIVE
ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 30th day
of April, 2018, HEREBY ORDERED AS FOLLOWS:
MOTION BY APPELLANT
MOTION TO OBTAIN PERMISSION TO
FILE SECOND MOTION FOR
DENIED
RECONSIDERATION
SUPPLEMENTAL:
FOR THE COURT:
/s/ Harry G. Carroll__________
HARRY G. CARROLL, J.A.D.

App. 8
LT-001648-16 ESSEX
ORDER - REGULAR MOTION
IV

App. 9
ORDER ON MOTION
MARGARET A. NORTON
V.
COLGATE PALMOLIVE

ANSWER(S)
FILED:

SUPERIOR COURT
OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-004260-17
BEFORE PART G
JUDGE(S):
HARRY G. CARROLL
HANYA. MAWLA

SUBMITTED TO COURT:
March 19, 2018

BY:
MARGARET NORTON

MOTION FILED:
01/30/2018

ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 20th day
of March, 2018, HEREBY ORDERED AS FOLLOWS:
MOTION BY APPELLANT
MOTION FOR RECONSIDERATION TO
VACATE DENIAL OF MOTION TO FILE
NOTICE OF APPEAL AS WITHIN TIME DENIED
SUPPLEMENTAL:
FOR THE COURT:
/s/ Harry G. Carroll__________
HARRY G. CARROLL, J.A.D.

App. 10
LT-001648-16 ESSEX
ORDER - REGULAR MOTION
IV

App. 11
ORDER ON MOTION
MARGARET A. NORTON SUPERIOR COURT
OF NEW JERSEY
V.
COLGATE PALMOLIVE APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-002794-17
MOTION FILED:
BEFORE PART G
12/11/2017
JUDGE(S):
ANSWER(S) 12/28/2017
JOSEPH L. YANNOTTI
FILED:
HANYA. MAWLA
SUBMITTED TO COURT: BY:
January 8,2018
MARGARET NORTON
BY:
COLGATE PALMOLIVE
ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 8th day of
JANUARY, 2018, HEREBY ORDERED AS FOLLOWS:
MOTION BY APPELLANT
MOTION TO VACATE DENIAL OF
PLAINTIFF’S MOTION TO FILE NOTICE
DENIED
OF APPEAL AS WITHIN TIME
SUPPLEMENTAL:
FOR THE COURT:
/s/ Joseph L. Yannotti____________
JOSEPH L. YANNOTTI, P.J.A.D.

App. 12
LT-001648-16 ESSEX
ORDER - REGULAR MOTION
IV

App. 13
ORDER ON MOTION
MARGARET A. NORTON SUPERIOR COURT
OF NEW JERSEY
V.
COLGATE PALMOLIVE APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-000917-17
MOTION FILED:
BEFORE PART G
09/05/2017
JUDGE(S):
ANSWER(S) 10/13/2017
JOSEPH L. YANNOTTI
FILED:
HANY A. MAWLA
SUBMITTED TO COURT: BY:
November 16, 2017
MARGARET NORTON
BY:
COLGATE PALMOLIVE
ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 16th day
of NOVEMBER, 2017, HEREBY ORDERED AS FOL­
LOWS:
MOTION BY APPELLANT
MOTION TO FILE NOTICE OF APPEAL
DENIED AND OTHER
AS WITHIN TIME
SUPPLEMENTAL:
Rule 2:4-2(a) provides that a notice of appeal from
a final judgment of a trial court must be filed within

App. 14
forty-five days of its entry. Rule 2:4-3 provides in perti­
nent part that the time in which an appeal may be
taken shall be tolled when a timely motion for recon­
sideration is submitted pursuant to Rule 4:49-2. The
rule states, “The remaining time shall again being to
run from the date of entry of an order disposing of such
motion.” Ibid.
Here, the trial court entered an order on February
3, 2017, granting defendant’s motion for summary
judgment. Plaintiff had twenty days after service of
that order to file a motion for reconsideration. R. 4:492. The record does not indicate when the order was
served.
Plaintiff filed a motion for reconsideration on Feb­
ruary 25, 2017. Assuming the first reconsideration mo­
tion was timely, twenty-two days of the time for appeal
had run when the motion was filed, and the remaining
time in which to appeal, twenty-three days, was tolled
during the pendency of that motion.
The trial court denied the first motion on March
20, 2017. Plaintiff filed her second motion for reconsid­
eration on March 30, 2017. Thus, another ten days of
the time for appeal had run when the motion was filed,
and the remaining time for appeal, thirteen days, was
tolled during the pendency of that motion.
The trial court denied the second motion for recon­
sideration on June 28,2017. Plaintiff had thirteen days
in which to file a timely notice of appeal. She did not
file a notice of appeal until August 18, 2017. The notice
of appeal states that plaintiff was appealing the trial

App. 15
court’s order of February 3,2017, and the order of June
28, 2017.
Thus, the time for appealing the trial court’s order
of February 3, 2017, had run when the notice of appeal
was filed. Plaintiff has not shown good cause to extend
the time for appeal. Although plaintiff states in the no­
tice of appeal that she is appealing from the court’s
June 28,2017 order denying reconsideration, it is clear
that her appeal is a challenge to the order granting
summary judgment.
Accordingly, the motion to extend the time to file a
notice of appeal is denied, and the notice of appeal filed
in this matter dismissed.
FOR THE COURT:
/s/ Joseph L. Yannotti_____________
JOSEPH L. YANNOTTI, P.J.A.D.
LT-001648-16

ESSEX

ORDER - REGULAR MOTION
IV

App. 16
ORDER ON MOTION
MARGARET A. NORTON SUPERIOR COURT
OF NEW JERSEY
V.
COLGATE PALMOLIVE APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-000918-17
MOTION FILED:
BEFORE PART G
09/05/2017
JUDGE(S):
ANSWER(S)
JOSEPH L. YANNOTTI
FILED:
HANYA. MAWLA
SUBMITTED TO COURT: BY:
November 16, 2017
MARGARET NORTON
ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 16th day
of NOVEMBER, 2017, HEREBY ORDERED AS FOL­
LOWS:
MOTION BY APPELLANT
MOTION TO SUPPLEMENT
DENIED AS MOOT/OTHER
THE RECORD
SUPPLEMENTAL:
See order entered on M-0917-17, dismissing the
appeal.
FOR THE COURT:
/s/ Joseph L. Yannotti____________
JOSEPH L. YANNOTTI, P.J.A.D.

App. 18
ORDER ON MOTION
MARGARET A. NORTON SUPERIOR COURT
OF NEW JERSEY
V.
COLGATE PALMOLIVE APPELLATE DIVISION
DOCKET NO.
A-000083-17T2
MOTION NO.
M-001370-17
MOTION FILED:
BEFORE PART G
10/25/2017
JUDGE(S):
ANSWER(S)
JOSEPH L. YANNOTTI
FILED:
HANYA. MAWLA
SUBMITTED TO COURT: BY:
November 16, 2017
MARGARET NORTON
ORDER
THIS MATTER HAVING BEEN DULY PRE­
SENTED TO THE COURT, IT IS, ON THIS 16th day
of NOVEMBER, 2017, HEREBY ORDERED AS FOL­
LOWS:
MOTION BY APPELLANT
MOTION TO FILE A REPLY TO MOTION
GRANTED
ANSWER
SUPPLEMENTAL:
FOR THE COURT:
/s/ Joseph L. Yannotti____________
JOSEPH L. YANNOTTI, P.J.A.D.

App. 20
THIS ORDER WAS PREPARED BY THE COURT
FOR THE CONVENIENCE OF THE PARTIES
MARGARET A. NORTON,
Plaintiff
V.
COLGATE PALMOLIVE
Defendant.

SUPERIOR COURT
OF NEW JERSEY
LAW DIVISION ESSEX COUNTY
DOCKET NO:
ESX-LT-1648-16
Civil Action
ORDER DENYING
RECONSIDERATION

This matter having come before the Court on a mo­
tion by Margaret Norton, Pro Se for the Court to Re­
consider its prior decision wherein the court granted
summary judgment on behalf of the defendant the
Court having considered the objections, if any, to the
within relief and the pleadings submitted and the ar­
guments of the parties and as noted below and for good
cause shown:
It is on this 28th day of June 2017,
ORDERED that motion for reconsideration is De­
nied for the reasons attached.

App. 21
Lastly IT IS ORDERED that a copy of this Order
and the addendum must be served on all parties within
7 days.
Date: 6/28/07

/s/ L. Grace Spencer
HON. L. GRACE SPENCER,
J.S.C.

STATEMENT OF REASONS
Plaintiff has filed this motion for reconsideration
and asks the court to reconsider its denial of plaintiff’s
February 3, 2017 summary judgment motion and de­
fendant’s February 3, 2017 cross motion for summary
judgment and its motion denying reconsideration on
March 20, 2017.
This is a personal injury matter that arises out of
plaintiffs use of Colgate toothpaste. Plaintiff alleged
that the defendants were negligent because they did
not have a warning on the toothpaste stating that
there was coconut in SLS. Plaintiff alleges that she ex­
perienced an allergic reaction to the ingredient in the
tooth paste called Sodium Lauryl Sulfate (“SLS”).
More specifically, plaintiff alleges “experiencing aller­
gic reactions to the coconut ingredient in the tooth­
paste that is not listed on the product label or
container.” (Plaintiff is allergic to coconut the SLS in­
gredient in the tooth paste was derived from Palm Ker­
nel Oil and plaintiff states that palm kernel is in the
same family as the coconut.)

App. 22
Plaintiff asserts that the court or looked the fact
that plaintiff had proven her case beyond a preponder­
ance of evidence as her allegation are based on com­
mon knowledge.
First, a motion for reconsideration must be based
on at least one of three grounds: 1) the court’s decision
was palpably incorrect on the facts or law, 2) the court
did not appropriately consider or appreciate evidence,
or 3) the party has new information which could not be
brought previously, which the court can consider in its
discretion. Cummings v. Bahr. 295 N.J. Super. 374, 384
(App. Div. 1996).
Under D’Atria v. D’Atria it is required that the
moving party identify probative, competent evidence
that the Court failed to consider or failed to appreciate
its significance. 242 NJ 392 (Ch. Div. 1990)
Further, it is well settled in New Jersey that “re­
consideration cannot be used to expand the record and
reargue a motion. Reconsideration is only to point out
“the matters or controlling decision which counsel be­
lieves the [C]ourt has overlooked or as to which it has
erred.” Capital Fin. Co. of Del. Valiev. Inc, v. Asterbadi.
398 N.J. Super. 299 (App. Div. 2008). “The magnitude
of the error cited must be a game-changer for reconsid­
eration to be appropriate.” Palombi v. Palombi. 414 N.J.
Super. 274 (App. Div. 2010).
In this matter Plaintiff has not presented any new
information which couldn’t be presented to the court at
the time the Court first considered the motions for
Summary Judgment on February 3,2017 or at the time

App. 23
of the prior motion for reconsideration on March 20,
2017.
In this motion for reconsideration plaintiff is argu­
ing that the court failed to consider her argument that
the information necessary to prove her claim is com­
mon knowledge. In support of her assertion plaintiff
has submitted information from websites such as the
FDA and the USDA and other reference materials.
Plaintiff further states that it is common
knowledge that palm kernel oil which Defendant’s
state that the sodium laurel sulfate is derived from
part of the palm family and therefore from coconut
palm and that the Defendant had a duty to include
that information on the label of its toothpaste.
When this matter was heard on February 3, 2017
the court ruled that The plaintiff cannot demonstrate
a prima facie case of negligence without expert testi­
mony. The subject matter of this case is such that a
witness qualified as an expert is necessary to assist the
trier of fact to understand the evidence. See N.J.R.E.
702. Simply arguing that it is common knowledge
based on internet research is not sufficient. Expert tes­
timony is necessary to prove there is a causal link be­
tween a claimed injury and the tortuous act alleged
See Kelly v. Borwegan. 95 N.J. Super. 240,243-44 (App.
Div. 1967).
Further, in this case, plaintiff admitted at her dep­
osition that no doctor has told her that symptoms were
caused by the use of toothpaste. Although plaintiff at­
taches medical records in regards to her swollen

App. 24
throat, the records do not indicate that it was caused
by the toothpaste. A jury should not be able to specu­
late whether as to whether there is a causal link be­
tween plaintiff’s claimed injury and the use of
defendant’s toothpaste. Plaintiff failed to provide ex­
pert testimony as to negligence
Plaintiff has failed to bring forth any new infor­
mation which was not available at the time of filing,
has not stated how the court’s decision was wrong on
the facts or law, she does mention evidence that the
court did not consider, and he has not provided the
Court with any new information that could not have
been brought to the Court’s attention. As such plaintiff
has failed to satisfy the requirements under Cum­
mings. D’Atria or Capital Fin. Co. of Del. Valley. Inc.
According the motion for reconsideration is Denied.

App. 25
Form C
Name Margaret A. Norton
NJ Attorney ID Number (if applicable)
Address 505 Elizabeth Avenue. Apt 2E
Newark. NJ 07212
Telephone Number 973-757-7853
Superior Court of
New Jersey
Law Division
Essex County
Docket Number
ESX-L-1648-16
Margaret A. Norton. Pro Se
Plaintiff(s)

Civil Action

v.

(Filed Mar. 20, 2017)

Order

Colgate-Palmolive Company
Defendant(s)
This matter having been brought before the Court on
Motion of (check one) ■ plaintiff □ defendant for an
Order (describe relief requested)
Summary judgment in favor of plaintiff in the amount
of one million dollars for pain and suffering. One mil­
lion dollars for punitive damages. The defendant’s
cross-motion be dismissed “with prejudice”
and the Court having considered the matter and for
good cause appearing,

App. 26
It is on this 20 day of March 2017. ORDERED as fol­
lows:
[Motion for Reconsideration is DENIED]
/s/ L. Grace Spencer
Hon L. Grace Spencer, J.S.C.
|x| Opposed
□ Unopposed

App. 27
Rey O. Villanueva/ID 038052004
Golden, Rothschild, Spagnola, Lundell,
Boylan & Garubo, RC.
1011 Route 22 West, Suite 300
P.O. Box 6881
Bridgewater, NY 08807
Telephone: 908-722-6300
Attorneys for Defendant,
COLGATE - PALMOLIVE COMPANY
Our File No. 4336.96635
MARGARET NORTON
Plaintiff, Pro Se,
vs.
COLGATE - PALMOLIVE
COMPANY
Defendant.

SUPERIOR COURT OF
NEW JERSEY
LAW DIVISION: ESSEX
COUNTY
DOCKET NO.
ESX-L-1648-16
Civil Action
ORDER
(Filed Feb. 3, 2017)

This matter having been opened to the Court on
Friday, January 20, 2017, by Golden, Rothschild,
Spagnola, Lundell, Boylan & Garubo, PC., Attorneys
for the Defendant, COLGATE - PALMOLIVE COM­
PANY, in the above captioned matter, the Court having
considered the moving papers, any opposition filed
thereto and for good cause having been shown;
IT IS ON THIS 3rd day of February, 2017;

App. 28
ORDERED that Summary Judgment in favor of
Defendant, COLGATE - PALMOLIVE COMPANY, be
and hereby is granted, and it is further
ORDERED that Plaintiff’s Complaint is dis­
missed with prejudice; and it is further
ORDERED that Plaintiff’s Motion for Summary
Judgment is denied; and it is further
ORDERED that a true copy of this Order shall be
served upon all parties to this action within 7 days of
receipt hereof.
/s/ L. Grace Spencer_____________
Hon L. Grace Spencer, J.S.C.
Opposed X
Unopposed _

App. 29
FORM C
Margaret A. Norton______
Your Name
505 Elizabeth Ave. Apt. 2E
Street Address
Newark. NJ 07112
Town, State, Zip Code
(973) 757-7853
Telephone Number

SUPERIOR
COURT OF NEW
JERSEY
LAW DIVISION
Essex County
Docket Number
ESX-L 1648-16
CIVIL ACTION
Order

Margaret A. Norton
Plaintiff

(Filed Oct. 28, 2016)

vs.
Colegate - Palmolive Company
Defendant
This matter having been brought before the Court
on Motion of (check one) IS plaintiff □ defendant for
an Order (describe relief requested)
of punitive damages one million dollars & pain
and suffering one million dollars.
and the Court having considered the matter and for
good cause appearing,
It is on this 28 day of October. 20
ORDERED as follows:
DENIED
/s/ L. Grace Spencer
L. Grace Spencer

, J.S.C.

App. 30
12 Opposed
□ Unopposed
[*MOTION improper and premature and for reasons
set forth on the record LS]

App. 31
SUPREME COURT OF NEW JERSEY
M-826 September Term 2018
081396
Margaret A. Norton,
Plaintiff-Movant,
v.

ORDER
(Filed May 3, 2019)

Colgate Palmolive,
Defendant.
It is ORDERED that the motion for reconsidera­
tion of the Court’s order denying the petition for certi­
fication is denied.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 30th day of April, 2019.
/s/ Heather J. Bates
CLERK OF THE
SUPREME COURT

